               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Using U.S. Postal Service-Specific
      Assumptions for Calculating the
        Retiree Health Care Liability

               Management Advisory




                                         September 27, 2013
Report Number FT-MA-13-022
                                                                     September 27, 2013

                                                    Using U.S. Postal Service-Specific
                                                         Assumptions for Calculating
                                                      the Retiree Health Care Liability

                                                           Report Number FT-MA-13-022



BACKGROUND:
The Federal Employees Health Benefits          WHAT THE OIG FOUND:
program offers health insurance to             Postal Service employees have
employees and retirees of the U.S.             distinguishing employee characteristics
Postal Service and federal agencies.           (termination, retirement, disability,
The Postal Service, employees, and             death, life expectancy, and health care
retirees contribute to the program for         plan elections) that the OPM does not
future benefits. The U.S. Office of            take into consideration when applying
Personnel Management (OPM)                     actuarial assumptions. These
administers the program.                       characteristics, as well as other
                                               non-employee factors, impact the retiree
As of September 30, 2012, the OPM              health care liability calculation.
projected a $47.84 billion retiree health      Currently, the OPM uses the same
care unfunded liability. The U.S. Postal       actuarial assumptions for Postal Service
Service Office of Inspector General            and federal employees without regard to
previously analyzed Postal Service             the characteristic differences between
funding levels and compared them to            them.
federal and state governments, the
military, and corporations. Those              If the retiree health care liability was
comparisons supported that the Postal          calculated using Postal Service-specific
Service funded its retirement liabilities at   assumptions, the liability would increase
a substantially higher level than the          by $2.34 billion, from $93.58 billion to
other organizations.                           $95.92 billion, and the Postal Service
                                               could achieve a more accurate liability
Our objective was to review the                estimate that more closely aligns with
assumptions used for the Postal                future benefits.
Service’s retiree health care liability
calculation and determine what effect          WHAT THE OIG RECOMMENDED:
those assumptions may have on the              We recommended management
retiree health care liability calculation      coordinate with the OPM to modify the
estimate.                                      future retiree health care liability
                                               calculation to use actuarial assumptions
                                               specific to the Postal Service.

                                               Link to review the entire report
September 27, 2013

MEMORANDUM FOR:            JOSEPH A. CORBETT
                           CHIEF FINANCIAL OFFICER AND
                           EXECUTIVE VICE PRESIDENT




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Management Advisory Report – Using U.S.
                           Postal Service-Specific Assumptions for Calculating
                           the Retiree Health Care Liability
                           (Report Number FT-MA-13-022)

This report presents the results of our review of Using U.S. Postal Service-Specific
Assumptions for Calculating the Retiree Health Care Liability (Project Number
13BG015FT002).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice M. Millett, director,
Finance, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Using U.S. Postal Service-Specific Assumptions for                                                                             FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                    TABLE OF CONTENTS


Introduction.................................................................................................................................... 1

Conclusion ..................................................................................................................................... 1

Postal Service-Specific Assumptions........................................................................................ 2

   Current Legislation ................................................................................................................... 3

Recommendation ......................................................................................................................... 4

Management’s Comments .......................................................................................................... 4

Evaluation of Management’s Comments.................................................................................. 4

Appendix A: Additional Information ........................................................................................... 5

   Background ............................................................................................................................... 5

   Objective, Scope, and Methodology ..................................................................................... 5

   Prior Audit Coverage ............................................................................................................... 6

Appendix B: Other Impact ........................................................................................................... 7

Appendix C: Management’s Comments ................................................................................... 8

Attachment A. Hay Group Report – Retiree Health Care – May 9, 2013............................ 9
Using U.S. Postal Service-Specific Assumptions for                                FT-MA-13-022
 Calculating the Retiree Health Care Liability




Introduction

This report presents the results of our self-initiated review of Using U.S. Postal
Service-Specific Assumptions for Calculating the Retiree Health Care Liability (Project
Number 13BG015FT002). Our objective was to review the assumptions used for the
Postal Service’s retiree health care liability calculation and determine what effect those
assumptions may have on the retiree health care liability calculation estimate. See
Appendix A for additional information about this review.

The Federal Employees Health Benefits (FEHB) program offers health insurance to
employees and retirees of the Postal Service and federal agencies. The Postal Service,
employees, and retirees contribute to the FEHB program for future benefits. The U.S.
Office of Personnel Management (OPM) administers the FEHB program and reported
that, as of September 30, 2012, the Postal Service had an unfunded liability of $47.84
billion for its retiree health care benefits. The U.S. Postal Service Office of Inspector
General (OIG) previously analyzed funding levels and provided comparisons to the
federal government, military, state governments, and corporations. Those comparisons
supported the Postal Service's funding of its retiree health care liability at 49 percent.

This report focuses on the calculation behind the retiree health care liability. Specifically,
we wanted to identify whether there were characteristics of Postal Service employees
that distinguish them from other federal employees to the extent that those
characteristics impact the retiree health care liability. To assist in answering our
objective, the OIG contracted with Hay Group, an independent actuarial firm with
expertise in Postal Service retiree health care benefits.

Conclusion

Demographic differences between Postal Service and other federal employees
impacted the calculation of the retiree health care liability estimate. Specifically, Postal
Service employees have distinguishing employee characteristics (termination,
retirement, disability, death, life expectancy, and health care plan elections) that the
OPM does not take into consideration when applying actuarial assumptions. When
calculating the retiree health care liability using actuarial assumptions specific to the
Postal Service, the liability is increased by $2.34 billion. Using assumptions that more
closely align with Postal Service employees causes the retiree health care liability to
increase from $93.58 billion to $95.92 billion.

We believe the Postal Service’s retiree health care liability should be calculated using
actuarial assumptions specific to Postal Service employees. This approach provides a
more accurate estimate of retirement liabilities that are more likely to match future
retirement benefits actually paid.


                                                     1
Using U.S. Postal Service-Specific Assumptions for                                               FT-MA-13-022
 Calculating the Retiree Health Care Liability



Postal Service-Specific Assumptions

Characteristic and demographic differences between Postal Service employees and
other federal employees impact the projected retiree health care liability. Specifically:

   The demographic characteristics and career patterns of Postal Service employees
    are different from those of federal employees. Postal Service employees are less
    likely to leave their positions and withdraw from the health care system, less likely to
    take early retirement, yet more likely to die while employed or retire on disability. The
    overall effect increases the retiree health care liability.

   The OPM projected improved mortality rates for federal employees. However, when
    considering only Postal Service employees, the mortality improvements for retired
    men ages 55 to 64 were significantly lower at 0.3 percent compared to the OPM's
    projected 1.7 percent. Overall, the mortality improvement for retired men was
    1 percent for Postal Service employees compared to the OPM’s 2 percent
    projection. For retired females, the mortality improvement was slightly higher at
    1.5 percent for Postal Service employees compared to the OPM’s 1.2 percent
    projection. The combined effect of these differences reduces the retiree health care
    liability.

   Postal Service employees have a higher enrollment in family health care plans
    versus federal employees, prompting an increase in the retiree health care liability.

We also identified other factors that impact the retiree health care liability but are not
directly related to employee characteristics or demographics:

   Actual investment returns on retiree health care assets have been lower than
    expected and have increased the retiree health care liability. In September 2011, the
    assumed investment rate for retiree health care assets was reduced from
    4.9 percent to 4.7 percent. Interest rates have a dynamic effect on retiree health
    care assets and the projected liability. As interest rates rise, liabilities decrease.
    Conversely, when interest rates lower, liabilities increase. Recent slight rises in
    interest rates have bolstered corporate retirement assets and reduced liabilities. This
    trend may also reduce the Postal Service’s retiree health care liability in the future.

   The OPM captures per capita claim costs and uses trend rates1 to project future
    health care costs. In October 2011, the short-term trend rates were lowered while
    the long-term trend rates increased. Combined, the health care claim costs and
    trend rates reduced the retiree health care liability.




1
 Trend rates are an actuarial assumption expressed in a percentage based on the Getzen model developed by the
Society of Actuaries.



                                                       2
Using U.S. Postal Service-Specific Assumptions for                                                        FT-MA-13-022
 Calculating the Retiree Health Care Liability


To review the retiree health care liability, we analyzed demographic experiences,2 life
expectancies, investment returns, health care claim costs, health care trends, and
health care plans using census data on Postal Service employees and retirees provided
by the OPM.3 We concluded that some characteristics and demographics of Postal
Service employees differ from federal employees and these differences impact the
retiree health care liability. When calculating the retiree health care liability, the OPM
applies actuarial assumptions to Postal Service employees and federal employees
equally, without regard to the characteristic differences.

We recalculated the Postal Service’s retiree health care liability and found that the
combined effect of the characteristic and demographic differences (and other factors)
increases the retiree health care liability by $2.34 billion. Using the OPM’s assumptions,
the retiree health care unfunded liability was $47.84 billion; while using Postal
Service-specific assumptions, the retiree health care unfunded liability would be
$50.18 billion. See Attachment A for further information on the characteristic differences
and adjusted calculations for retiree health care. See Appendix B for other impact
calculations.

The Postal Service’s employee population is large enough to support the development
of Postal Service-specific actuarial assumptions, which should be used to calculate the
Postal Service’s retiree health care liability. Adjusting actuarial assumptions for Postal
Service employees will provide a more accurate estimate of the Postal Service’s retiree
health care liability. Additionally, this approach would better align the estimated retiree
health care liability with future retiree health care benefits paid to Postal Service
retirees.

Current Legislation

Congress has introduced several bills, which address the Postal Service’s retiree health
care liability:

      Postal Reform Act of 2013 (S. 1486), introduced on August 1, 2013, would eliminate
       the current prefunding requirement for retiree health care and replace it with a less
       aggressive 40-year amortization of the liability. Additionally, it would grant the Postal
       Service the authority to pay premiums for current retirees from the Postal Service
       Retiree Health Benefit Fund.

      Postal Reform Act of 2013 (H.R. 2748), introduced on July 19, 2013, would eliminate
       prefunding requirements for the retiree health care liability and grant access to the
       Postal Service Retirement Health Benefits Fund beginning October 1, 2014.

      Innovate to Deliver Act of 2013 (H.R. 2690), introduced on July 16, 2013, would
       modify the prepayment schedule for funding the retiree health care liability.


2
    Demographic experiences include termination, retirement (including early retirement), disability, and death.
3
    Most recent census data is from September 30, 2011.



                                                             3
Using U.S. Postal Service-Specific Assumptions for                               FT-MA-13-022
 Calculating the Retiree Health Care Liability


   Postal Service Protection Act of 2013 (S.316), introduced on February 13, 2013,
    would eliminate prefunding requirements for the retiree health care liability.

   Postal Service Protection Act of 2013 (H.R. 630), introduced on February 13, 2013,
    would eliminate prefunding requirements for the retiree health care liability.

We will continue to monitor the legislative activity as part of our ongoing analysis.

Recommendation

We recommend the executive vice president, chief financial officer:

1. Coordinate with the Office of Personnel Management to modify the future retiree
   health care liability calculation to use actuarial assumptions specific to the Postal
   Service.

Management’s Comments

Management agreed with the finding and recommendation. Management stated they
are ready to assist the OPM; however, management understands that OPM’s position,
under current law, is that OPM does not have the authority to change the calculation of
the Postal Service’s liability. Management will continue to support pending legislation
that would direct the OPM to use Postal Service-specific actuarial assumptions in
calculating the Postal Service’s liability. See Appendix C for management’s comments
in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
management’s corrective actions should resolve the issue identified in the report. The
OIG considers the recommendation significant; however, since management’s
corrective actions are ongoing and subject to legislative action, the OIG will close the
recommendation upon issuance of the report.




                                                     4
Using U.S. Postal Service-Specific Assumptions for                                                     FT-MA-13-022
 Calculating the Retiree Health Care Liability



                                 Appendix A: Additional Information

Background

The FEHB program includes a variety of health care plans offered to Postal Service
employees and federal agencies for self-only or family coverage. Eligible employees,
family members, and survivors may continue health care coverage in the FEHB
program upon retirement. For retiree health care benefits, the OPM administers the
Postal Service Retiree Health Benefit Fund. By law,4 the Postal Service is required to
fully fund its retiree health care liability by 2016. The Postal Service contributes up to
75 percent5 of the health care premium and the retiree contributes the remaining share.

To account for future retiree health care benefits, a liability is estimated and disclosed in
the financial statements. The OPM calculates the retiree health care liability using
actuarial assumptions for demographic experiences,6 life expectancies, investment
returns, health care claim costs, health care trends, and health care plans. Changes in
the economic climate or demographics can alter the liability from year to year.
Understandably, actuarial assumptions will never equal the actual experiences,
resulting in actuarial gains or losses. In recent years, lower interest rates and longer life
spans have increased the liability.

The OPM provides an annual estimate the retiree health care assets and liability for the
Postal Service. The assets include actual contributions, plus interest earned on those
contributions, less benefits paid to retirees. The liability includes projections of future
benefits paid to retirees, less expected future contributions. A surplus exists when the
assets exceed the estimated liability. Conversely, an unfunded liability exists when the
estimated liability exceed the assets.

The OIG has previously offered a variety of recommendations to assist the Postal
Service in controlling expenses and decreasing future losses caused by funding the
retiree health care liability. The Postal Service continues to work with Congress to
develop legislation to address the comprehensive issues identified in our prior reports.

Objective, Scope, and Methodology

Our objective was to review the assumptions used for the Postal Service’s retiree health
care liability calculation and determine what effect those assumptions may have on the
retiree health care liability calculation estimate.




4
  Postal Accountab ility and Enhancement Act of 2006, Public Law 109-435.
5
  The contribution is capped at 72 percent of the weighted average premium of all FEHB health care plans; however,
if enrolled in a plan with a premium lower than the average, the Postal Service contributes 75 percent of the premium.
6
  Demographic experiences included termination, retirement (including early retirement), disability, and death.



                                                          5
Using U.S. Postal Service-Specific Assumptions for                            FT-MA-13-022
 Calculating the Retiree Health Care Liability


To achieve our objective we:

   Reviewed prior OIG and Government Accountability Office reports.

   Contracted with Hay Group, an independent actuarial firm with expertise in the
    Postal Service’s retiree health care liability.

   Considered proposed legislation and current news articles.

We conducted this review from January through September 2013 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on September 11, 2013, and included their comments where appropriate.
We did not rely on computer-generated data to support the opinions and conclusions
presented in this report.

Prior Audit Coverage

Since 2010, we have issued a series of reports discussing the retiree health care
benefits and how the Postal Service pays more than its fair share to the federal
government.

   U.S. Postal Service Alternative Health Care Plan Proposal (Report Number
    FI-MA-12-014, dated August 22, 2012).

   Pension and Retiree Health Care Funding Levels (Report Number FT-MA-12-002,
    dated June 18, 2012).

   Leveraging Assets to Address Financial Obligations (Report Number FF-MA-11-118,
    dated July 12, 2011).

   Substantial Savings Available by Prefunding Pensions and Retirees’ Health Care at
    Benchmarked Levels (Report Number FT-MA-11-001, dated November 23, 2010).

   Summary of Substantial Overfunding in Postal Service Pension and Retiree Health
    Care Funds (Report Number FT-MA-10-002, dated September 30, 2010).




                                                     6
Using U.S. Postal Service-Specific Assumptions for                                                  FT-MA-13-022
 Calculating the Retiree Health Care Liability



                                       Appendix B: Other Impact

                                                                                      Amount
          Recommendation                       Impact Category                      (in billions)
                 1                               Data Integrity7                   $2,340,000,000

As of September 30, 2012, the OPM projected a $47.84 billion unfunded liability for the
Postal Service’s retiree health care benefits. Using Postal Service-specific actuarial
assumptions, the unfunded liability would be $50.18 billion, resulting in a $2.34 billion
increase in the unfunded liability.




7
 Validation of the consistency, accuracy, and completeness of data used by the Postal Service. Data used to support
management decisions that is not fully supported or completely accurate. This can be the result of flawed
methodology; procedural errors; or missing or unsupported facts, assumptions, or conclusions.



                                                        7
Using U.S. Postal Service-Specific Assumptions for             FT-MA-13-022
 Calculating the Retiree Health Care Liability


                           Appendix C: Management’s Comments




                                                     8
Using U.S. Postal Service-Specific Assumptions for                    FT-MA-13-022
 Calculating the Retiree Health Care Liability



        Attachment A. Hay Group Report – Retiree Health Care – May 9, 2013




                                                     9
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     10
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     11
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     12
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     13
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     14
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     15
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     16
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     17
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     18
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     19
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     20
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     21
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     22
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     23
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     24
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     25
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     26
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     27
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     28
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     29
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     30
Using U.S. Postal Service-Specific Assumptions for        FT-MA-13-022
 Calculating the Retiree Health Care Liability




                                                     31
